TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2009 Statutory Audit of
                        Compliance With Legal Guidelines
                         Restricting the Use of Records of
                             Tax Enforcement Results



                                           June 30, 2009

                              Reference Number: 2009-30-091




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                June 30, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Fiscal Year 2009 Statutory Audit of Compliance
                              With Legal Guidelines Restricting the Use of Records of Tax
                              Enforcement Results (Audit # 200930023)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with restrictions on the use of enforcement statistics to evaluate employees as set
 forth in the IRS Restructuring and Reform Act of 1998 (RRA 98) Section 1204.1 The Treasury
 Inspector General for Tax Administration is required under Internal Revenue Code Section
 7803(d)(1)(2000) to annually evaluate the IRS’ compliance with the provisions of RRA 98
 Section 1204.

 Impact on the Taxpayer
 The RRA 98 requires the IRS to ensure that managers do not evaluate enforcement employees2
 using any record of tax enforcement results (ROTER) or base employee successes on meeting
 production goals and quotas. Based on the results of our sample, we believe the IRS’ efforts to
 enforce the employee evaluation requirements under Section 1204 are generally effective and are
 helping to protect the rights of taxpayers. However, in our last two audits, the IRS has not
 achieved full compliance with Section 1204, and this heightens our concern that the IRS is
 moving in a direction away from achieving full compliance with Section 1204 and ensuring the
 rights of all taxpayers are protected in the future.


 1
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 2
   An enforcement (Section 1204) employee is an employee or any first-line manager of an employee who exercises
 judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or
 who provides direction/guidance for Section 1204 program activities.
                                    Fiscal Year 2009 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results



Synopsis
RRA 98 Section 1204(a) prohibits the IRS from using any ROTER to evaluate employees or to
impose or suggest production quotas or goals. Section 1204(b) requires employees to be
evaluated using the fair and equitable treatment of taxpayers as a performance standard.
Section 1204(c) requires each appropriate supervisor to certify quarterly whether tax
enforcement results were used in a prohibited manner.
To evaluate compliance with RRA 98 Section 1204, we selected a judgmental sample of 10 cities
in which at least 4 IRS organizations subject to Section 1204 requirements were located. We
selected 7 first-line managers from the different business organizations and 3 employees from
each of the managers for a total of 69 managers and 207 employees.3 In addition, we selected
10 second-level managers having supervisory responsibilities over the first-line managers
selected for review. We evaluated Fiscal Year 2008 performance evaluation documents
(including mid-year and annual performance reviews and award documentation) for each
selected employee to determine whether ROTERs were used when evaluating the employees’
performance.
The IRS did not achieve full compliance with Section 1204(a)
requirements. We identified violations of RRA 98 Section
1204(a) in 7 (1 percent) of the 601 performance evaluation            Full compliance with
                                                                     RRA 98 Section 1204
documents reviewed. In all seven violations, we found
                                                                    was not achieved during
documentation that managers included ROTERs in the                     Fiscal Year 2008.
employees’ evaluation, evaluated employees on the fair and
equitable treatment of taxpayers, and prepared quarterly
self-certifications showing that ROTERs were not used to evaluate employees.

Recommendation
The Deputy Commissioner for Operations Support should ensure that Section 1204 violations are
reviewed with the managers and they are provided remedial training, using the appropriate
internal guidelines, to address their understanding of ROTERs. In addition, the Deputy
Commissioner should strengthen the IRS’ efforts to achieve full compliance with RRA 98
Section 1204 procedures by ensuring that all managers are aware of and use internal guidelines
when preparing and reviewing performance evaluations.




3
 We sampled 70 front-line managers; however, 1 manager did not have responsibility for enforcement employees.
The IRS did not require the manager to prepare the self-certification; therefore, one manager and three employees
were eliminated from our sample.
                                                                                                                    2
                               Fiscal Year 2009 Statutory Audit of
                          Compliance With Legal Guidelines Restricting
                         the Use of Records of Tax Enforcement Results



Response
IRS management disagreed with six of the seven potential violations identified and did not agree
with the recommendation. Regarding the one violation they agreed to, IRS management
responded that the violation was addressed with the manager. Also, management responded that
IRS employees are trained in the latest Section 1204 requirements throughout the year, and they
use these training opportunities to raise manager awareness and understanding of the
requirement. Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
IRS management disagreed that the ROTERs we identified in employee self-assessments violate
RRA 98 Section 1204(a). However, our position is that a self-assessment containing ROTERs
violates RRA 98 Section 1204(a) when the self-assessment is adopted by a manager in the
evaluation. Furthermore, when ROTERS appear in managerial self-assessments, they raise an
inference that Section 1204(a) has been violated. Self-assessments are a fundamental part of the
evaluation process for managers and executives, who complete self-assessments and provide
them to their managers for consideration when preparing their annual appraisals. In our
experience, the self-assessments are usually associated with the annual appraisals. Quite often,
self-assessments are attached to and, in effect, become part of the annual appraisals.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                               3
                                          Fiscal Year 2009 Statutory Audit of
                                     Compliance With Legal Guidelines Restricting
                                    the Use of Records of Tax Enforcement Results




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          First-Line Managers Appropriately Completed Their Quarterly
          Self-Certifications .........................................................................................Page 4
          The Internal Revenue Service Is Not in Full Compliance With
          the Use of Records of Tax Enforcement Results Procedures .......................Page 5
                    Recommendation 1:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Prior Audit Reports ..............................................................Page 14
          Appendix V – Manager’s Quarterly Self-Certification – No Violations
          (Form 1204-M) .............................................................................................Page 15
          Appendix VI – Management’s Response to the Draft Report ......................Page 16
               Fiscal Year 2009 Statutory Audit of
          Compliance With Legal Guidelines Restricting
         the Use of Records of Tax Enforcement Results




                 Abbreviations

FY         Fiscal Year
IRS        Internal Revenue Service
ROTER      Record of Tax Enforcement Results
RRA 98     Restructuring and Reform Act of 1998
TIGTA      Treasury Inspector General for Tax Administration
                                    Fiscal Year 2009 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results




                                           Background

On July 22, 1998, the President signed the Internal Revenue Service (IRS) Restructuring and
Reform Act of 1998 (RRA 98) into law.1 RRA 98 Section 1204 restricts the use of enforcement
statistics. Specifically, RRA 98 Section 1204(a) prohibits the IRS from using any record of tax
enforcement results (ROTER) to evaluate employees or to impose or suggest production quotas
or goals.
The IRS defines ROTERs as data, statistics, compilations of information, or other numerical or
quantitative recording of the tax enforcement results reached
in one or more cases. A ROTER does not include                     RRA 98 Section 1204
evaluating an individual case to determine if an employee       prohibits the IRS from using
exercised appropriate judgment in pursuing enforcement of       ROTERs or production goals
the tax laws. Examples of ROTERs include the amount of             or quotas to evaluate
dollars collected or assessed, the number of fraud referrals            employees.
made, and the number of seizures conducted.
RRA 98 Section 1204(b) requires employees to be evaluated using the fair and equitable
treatment of taxpayers as a performance standard. The IRS refers to this standard as the
retention standard. The standard requires employees to administer the tax laws fairly and
equitably; protect all taxpayers’ rights; and treat each taxpayer ethically with honesty, integrity,
and respect. This provision of the law was enacted to provide assurance that employee
performance is focused on providing quality service to taxpayers instead of achieving
enforcement results.
RRA 98 Section 1204(c) requires each appropriate supervisor to perform a self-certification
quarterly. In the self-certification, the appropriate supervisor attests to whether ROTERs or
production quotas or goals were used in a prohibited manner. The IRS defines an appropriate
supervisor as the highest ranking executive in a distinct organizational unit who supervises
directly or indirectly one or more Section 1204 enforcement employees.2 IRS procedures require
each level of management, beginning with first-line managers of Section 1204(a) employees, to
self-certify that they have not used ROTERs in a manner prohibited by RRA 98 Section 1204(a).
The appropriate supervisor then prepares a consolidated office certification covering the entire
organizational unit.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement (Section 1204) employee is an employee or any first-line manager of an employee who exercises
judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or
who provides direction/guidance for Section 1204 program activities.
                                                                                                        Page 1
                                                         Fiscal Year 2009 Statutory Audit of
                                                    Compliance With Legal Guidelines Restricting
                                                   the Use of Records of Tax Enforcement Results



The IRS business organizations, including the Office of the Chief, Appeals; the Office of the
Chief, Criminal Investigation Division; the Large and Mid-Size Business Division; the Small
Business/Self-Employed Division; the Office of the National Taxpayer Advocate; the Tax
Exempt and Government Entities Division; and the Wage and Investment Division, are
responsible for Section 1204 program implementation within their respective areas. Section
1204 Program Managers and Coordinators in each business organization are available to provide
guidance to managers regarding Section 1204 issues, including the certification process.
Figure 1 depicts the ratio of Section 1204 and Non-Section 1204 managers in the subject
business organizations as of September 30, 2008. The Section 1204 managers either supervised
a Section 1204 employee or provided guidance or direction for Section 1204 activities.
        Figure 1: Number of Section 1204 and Non-Section 1204 Managers
               by Business Organization (as of September 30, 2008)
                        2500
                                                                                               2307                     2322




                        2000




                        1500

      Number of
      Managers

                        1000
                                                                                                                  855


                                                                           629


                         500                            443


                                                                                                      222                          222                  231
                                   125
                                              52                57                  46
                                                                                                                                             0                    6
                           0
                                                         Criminal                                Small            Wage and                          Tax Exempt and
                                                                       Large and M id-Size                                     Natio nal Taxpayer
                               A ppeals Functio n     Investigatio n                        B usiness/Self-      Investment                          Go vernment
                                                                       B usiness Divisio n                                         A dvo cate
                                                         Divisio n                         Emplo yed Divisio n     Divisio n                        Entities Divisio n
        Sectio n 1204                 125                  443                629                 2307              855               222                  231
        No n-Sectio n 1204               52                57                  46                 222               2322                 0                    6


    Source: IRS Section 1204 Program Manager.

Internal Revenue Code Section 7803(d)(1) (2000) requires the Treasury Inspector General for
Tax Administration (TIGTA) to determine annually whether the IRS is in compliance with
restrictions on the use of enforcement statistics under RRA 98 Section 1204. We have
previously performed 10 annual reviews to meet this requirement. The audit reports are listed in
Appendix IV.


                                                                                                                                                                      Page 2
                                Fiscal Year 2009 Statutory Audit of
                           Compliance With Legal Guidelines Restricting
                          the Use of Records of Tax Enforcement Results



This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of the Chief Financial Officer; the Office of the Chief, Appeals; the Office of the Chief, Criminal
Investigation Division; the Office of the National Taxpayer Advocate; the Large and Mid-Size
Business Division; the Small Business/Self-Employed Division; the Tax Exempt and
Government Entities Division; and the Wage and Investment Division during the period
October 2008 through March 2009. Onsite reviews were performed at the IRS field offices in
Brooklyn, New York; Cincinnati and Cleveland, Ohio; Indianapolis, Indiana; Laguna Niguel and
San Diego, California; Las Vegas, Nevada; Newark, New Jersey; Saint Louis, Missouri; and
San Antonio, Texas. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 3
                                    Fiscal Year 2009 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results




                                     Results of Review

First-Line Managers Appropriately Completed Their Quarterly
Self-Certifications
All 693 of the first-line managers we sampled were in compliance with the provisions of RRA 98
Section 1204(c) and completed the required self-certifications on the use of tax enforcement
results for the second and fourth quarters of Fiscal Year (FY) 2008. Each manager certified that
ROTERs or production goals or quotas were not used when evaluating employees. Appendix V
reflects the Manager’s Quarterly Self-Certification – No Violations (Form 1204-M) that
managers use quarterly to self-certify that there are no violations of RRA 98 Section 1204(a) and
(b).
RRA 98 Section 1204(c) requires appropriate supervisors to certify quarterly, in writing, to the
IRS Commissioner whether ROTERs and production quotas or goals were used in a prohibited
manner. Therefore, managers who evaluate Section 1204 employees are required to certify in
writing that they did not:
    •   Use ROTERs to evaluate employees or to impose or suggest production quotas or goals
        for employees in any performance evaluations, including appraisals, awards, or
        promotion justifications, written or reviewed by the manager.
    •   Verbally communicate to employees that ROTERs affected their evaluations.
    •   Verbally or in writing use ROTERs to impose or suggest production quotas or goals for
        employees or for work unit activities (e.g., through program guidance or business and
        program reviews).
Per the Internal Revenue Manual, the business organization and function Section 1204 Program
Managers and their respective Section 1204 Coordinators should monitor the quarterly
certification process throughout their organizations/functions. The Section 1204 Program
Managers and Section 1204 Coordinators are responsible for providing guidance to managers
regarding Section 1204 issues.
Through the quarterly certification process, managers are reminded of their responsibilities under
RRA 98 Section 1204 not to evaluate their employees on the basis of ROTERs or production


3
 We judgmentally sampled 70 front-line managers; however, 1 manager did not have responsibility for enforcement
employees. The IRS did not require the manager to prepare the self-certification; therefore, one manager and three
employees were eliminated from our sample.
                                                                                                          Page 4
                                    Fiscal Year 2009 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results



quotas or goals. The quarterly certification process helps to ensure that managers are aware of
the IRS’ commitment to administer the tax laws fairly and to protect the rights of taxpayers.

The Internal Revenue Service Is Not in Full Compliance With the Use
of Records of Tax Enforcement Results Procedures
In FY 2008, the IRS did not achieve full compliance with RRA 98 Section 1204(a) due to
violations in 7 (1 percent) of 601 employee or manager performance-related documents
reviewed. The IRS’ performance in FY 2007 was also not in full compliance and we reported
74 (1 percent) of 660 ROTER violations in performance evaluation documents reviewed. In the
past 2 fiscal years, our audit results have identified that the IRS is moving in a direction away
from achieving full compliance with Section 1204 procedures. We previously reported that
sampled managers provided documentation verifying that their employees were evaluated on the
fair and equitable treatment of taxpayers. However, we are still concerned that IRS employees
do not fully understand the IRS terms used to identify if taxpayers are receiving fair and
equitable treatment.
To evaluate the IRS’ compliance with Sections 1204(a) and 1204(b), we selected a judgmental
sample of 69 first-line managers and 207 employees in 10 cities.5 The sites selected had at least
four business organizations with Section 1204 first-line managers. We selected seven managers
and three of the manager’s employees at each site and reviewed their performance evaluation
documents. We also reviewed performance documentation for 10 second-line managers. We
evaluated 601 FY 2008 performance-related documents, including mid-year and annual
performance reviews, workload reviews, and award documentation for each employee, to
determine whether ROTERs were used when evaluating the employees’ performance.

ROTERs were used in a few evaluative documents
Our review of a judgmental sample of 601 performance-related documents for 286 managers and
employees showed 7 (1 percent) instances in which ROTERs were used to evaluate employees.
The ROTERs were found in employee self-assessments and annual performance reviews in the
Office of the Chief, Criminal Investigation Division; the Large and Mid-Size Business Division;
and the Tax Exempt and Government Entities Division. We discussed the violations with the
managers and they were not aware that they had included ROTERs in their performance
evaluation documents. The managers provided their intentions and additional context for using
the statistics in the performance evaluations and judgment for how the IRS pursued the
enforcement of tax laws. However, none of the additional context and intentions was included in
the performance evaluation documents. In most cases, however, the additional information

4
  The violations of RRA 98 Section 1204 (a) identified in the FY 2008 evaluation documents were found in different
cities from the violations in FY 2007.
5
  See Appendix I for details of the IRS offices and cities selected for review.
                                                                                                          Page 5
                                    Fiscal Year 2009 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results



would not have eliminated the violation. Also, when we asked the managers if they used Section
1204 internal guidelines when writing performance evaluation documents, they stated that they
did not always use them.
We also researched the TIGTA Performance and Results Information System6 for any related
Section 1204 complaints during the period October 1, 2007, through September 30, 2008, and
found two investigations and nine complaints. However, no Section 1204 violations were
identified based on the investigations or complaints.
Based on the results of our review, the IRS’ efforts to ensure that managers are not using
ROTERs or production goals or quotas to evaluate employees are generally effective and are
helping to protect the rights of taxpayers. Because the IRS continues to identify and report
ROTER violations through its managerial self-certification process, it developed a mandatory
briefing to be completed by all Section 1204 employees by March 21, 2008. Our review found
that the IRS mandatory Section 1204 training was conducted from February 11, 2008, to
April 4, 2008, and that 96 percent of the Section 1204 employees completed the training.

Some employees did not understand the meaning of the retention standard and
did not receive training
The first-line managers we sampled documented that they had evaluated employees on the
retention standard. By law, RRA 98 Section 1204(b), IRS employees are to be evaluated on the
retention standard. The standard applies to all executives, managers, and other employees.
On June 16, 1999, the IRS established a retention standard method to ensure that employee
performance is focused on providing quality service to taxpayers instead of on achieving
enforcement results. In most instances, Block 9 of the Bargaining Unit Performance Appraisal
and Recognition Election (Form 6850-BU) or the Non-Bargaining Unit Performance Appraisal
(Form 6850-NBU) was checked, indicating that the employees were evaluated on this standard.
Figure 2 presents an excerpt from the two Forms 6850 pertaining to the retention standard.




6
  The Performance and Results Information System provides the TIGTA the managerial ability to account for and
track all leads developed by the TIGTA, all complaints received from external sources, and all investigations
initiated as a result of internal and external allegations.
                                                                                                        Page 6
                                    Fiscal Year 2009 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results



                      Figure 2: Forms 6850 Retention Standard Rating




    Source: Form 6850-BU and Form 6850-NBU.

We interviewed 34 of the judgmentally selected employees to determine if they understood the
terminology “retention standard” and 23 of the 34 employees to determine if they received
training on the retention standard. Six of the 34 (18 percent) did not understand the term
“retention standard” and 2 (9 percent) of the 23 had not received training on the retention
standard. We are not making a recommendation to address the concerns at this time because
IRS management agreed in their response to a prior TIGTA audit7 to make changes to the
appropriate Forms 6850 and define the standard. The implementation date for the changes is
October 1, 2009. In our opinion, this repeat finding indicates that the IRS is moving away from
full compliance with Section 1204 procedures.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support should ensure that
Section 1204 violations are reviewed with the managers and they are provided remedial training
using the appropriate internal guidelines to address their understanding of ROTERs. In addition,
the Deputy Commissioner should strengthen the IRS’ efforts to achieve full compliance with
RRA 98 Section 1204 procedures by ensuring that managers are aware of and use internal
guidelines when preparing and reviewing performance evaluations.
         Management’s Response: IRS management disagreed with six of the seven
         potential violations identified and did not agree with the recommendation. Regarding the
         one violation they agreed to, IRS management responded that the violation was addressed
         with the manager. Also, IRS management responded that IRS employees are trained in
         the latest Section 1204 requirements throughout the year, and they use these training
         opportunities to raise manager awareness and understanding of the requirement.



7
 Fiscal Year 2008 Statutory Audit of Compliance With Legal Guidelines Restricting the Use of Records of Tax
Enforcement Results (Reference Number 2008-40-108, dated April 17, 2008).
                                                                                                        Page 7
                        Fiscal Year 2009 Statutory Audit of
                   Compliance With Legal Guidelines Restricting
                  the Use of Records of Tax Enforcement Results



Office of Audit Comment: IRS management disagreed that the ROTERs we
identified in employee self-assessments violate RRA 98 Section 1204(a). However, our
position is that a self-assessment containing ROTERs violates RRA 98 Section 1204(a)
when the self-assessment is adopted by a manager in the evaluation. Furthermore, when
ROTERS appear in managerial self-assessments, they raise an inference that Section
1204(a) has been violated. Self-assessments are a fundamental part of the evaluation
process for managers and executives, who complete self-assessments and provide them to
their managers for consideration when preparing their annual appraisals. In our
experience, the self-assessments are usually associated with the annual appraisals. Quite
often, self-assessments are attached to and, in effect, become part of the annual
appraisals.




                                                                                  Page 8
                                    Fiscal Year 2009 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with restrictions
on the use of enforcement statistics to evaluate employees as set forth in RRA 98 Section 1204.1
To accomplish this objective, we:
I.      Determined whether a sample of IRS first-line managers complied with the provisions of
        RRA 98 Sections 1204(a) and 1204(b) when evaluating their Section 1204 employees’2
        performance.
        A. Identified the Office of the Chief, Appeals; the Office of the Chief, Criminal
           Investigation Division; the Large and Mid-Size Business Division; the Small
           Business/Self-Employed Division; the Office of the Taxpayer Advocate; the Tax
           Exempt and Government Entities Division; and the Wage and Investment Division
           office locations in various cities and the number of Section 1204 first-line managers
           located in each business organization.
            We judgmentally selected 10 cities for this year’s audit:
                 •    Brooklyn, New York.
                 •    Cincinnati and Cleveland, Ohio.
                 •    Indianapolis, Indiana.
                 •    Laguna Niguel and San Diego, California.
                 •    Las Vegas, Nevada.
                 •    Newark, New Jersey.
                 •    Saint Louis, Missouri.
                 •    San Antonio, Texas.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement (Section 1204) employee is an employee or any first-line manager of an employee who exercises
judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or
who provides direction/guidance for Section 1204 program activities.
                                                                                                        Page 9
                                    Fiscal Year 2009 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results



             We selected sites that had at least 4 business organizations with Section 1204
             first-line managers and considered geographic coverage and prior audit coverage
             when selecting the 10 audit sites.
        B. Selected a judgmental sample of seven first-line managers per city and three Section
           1204 employees for each manager in our sample. This provided a total of
           69 managers and 2073 employees for review. We used FY 2008 data to select the
           audit sites for the sample. The audit team focused on the cities that had at least
           15 Section 1204 managers in at least 4 business organizations. The audit sites
           were judgmentally selected based on the number of first-line Section 1204 managers
           located at a site and the business organizations represented, prior audit coverage in
           FYs 2004 through 2008,4 geographical location of potential cities for travel
           considerations, and sites where the IRS internal review team identified problems.
        C. Obtained and reviewed FY 2008 performance evaluation documentation (including
           mid-year and annual performance reviews and award documentation) for each
           employee selected to determine whether the use of ROTERs or production goals or
           quotas was documented and whether employees were evaluated appropriately on the
           fair and equitable treatment of taxpayers.
        D. Interviewed a judgmental sample of 34 employees concerning the use of ROTERs
           and their understanding of the retention standard. We selected the employees based
           on available employees in the office the day of our visit who agreed to speak with us.
           Because the IRS had advised us that the number of Section 1204 employees changes
           frequently based on the duties performed, we were not able to pre-determine the total
           number of employees per business unit. We selected three to six employees per site.
        E. Reviewed TIGTA’s Performance and Results Information System5 for complaints
           regarding the violation of Section 1204.
        F. Obtained TIGTA Counsel’s opinion on seven cases identified and referred as having
           potential legal violations of RRA 98 Section 1204.
II.     Determined whether the selected first-line managers complied with RRA 98
        Section 1204(c) by certifying by letter whether or not ROTERs were used in a manner
        prohibited by RRA 98 Section 1204(a).


3
  We sampled 70 front-line managers; however, 1 manager did not have responsibility for enforcement employees.
The IRS did not require the manager to prepare the self-certification; therefore, one manager and three employees
were eliminated from our sample.
4
  Reviewed locations visited during prior audits to ensure locations selected were not duplicated.
5
  The Performance and Results Information System provides the TIGTA the managerial ability to account for and
track all leads developed by the TIGTA, all complaints received from external sources, and all investigations
initiated as a result of internal and external allegations.
                                                                                                         Page 10
                        Fiscal Year 2009 Statutory Audit of
                   Compliance With Legal Guidelines Restricting
                  the Use of Records of Tax Enforcement Results



A. Obtained FY 2008 second and fourth quarter self-certifications for the selected
   first-line managers. We reviewed the self-certifications for compliance with IRS
   procedures and the identification of any use of ROTERs or production quotas or
   goals.




                                                                                Page 11
                              Fiscal Year 2009 Statutory Audit of
                         Compliance With Legal Guidelines Restricting
                        the Use of Records of Tax Enforcement Results



                                                                            Appendix II

                Major Contributors to This Report

Margaret Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Marybeth Schumann, Director
Deborah Drain, Audit Manager
James O’Hara, Audit Manager
Gwendolyn Green, Lead Auditor
Carol Gerkens, Senior Auditor
Cindy Harris, Senior Auditor
Rebecca Kaplan, Auditor
Andrea McDuffie, Auditor
Sylvia Sloan-Copeland, Auditor
Ali Vaezazizi, Auditor
Erlinda Foye, Management Assistant




                                                                                   Page 12
                              Fiscal Year 2009 Statutory Audit of
                         Compliance With Legal Guidelines Restricting
                        the Use of Records of Tax Enforcement Results



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief, Criminal Investigation Division SE:CI
Chief Financial Officer OS:CFO
National Taxpayer Advocate TA
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Commissioner, Large and Mid-Size Business Division SE:LM
   Commissioner, Small Business/Self-Employed Division SE:S
   Commissioner, Tax Exempt and Government Entities Division SE:T
   Commissioner, Wage and Investment Division SE:W
   Chief, Appeals AP:TP:SS
   Chief, Criminal Investigation Division SE:CI
   Chief Financial Officer OS:CFO
   National Taxpayer Advocate TA




                                                                                    Page 13
                               Fiscal Year 2009 Statutory Audit of
                          Compliance With Legal Guidelines Restricting
                         the Use of Records of Tax Enforcement Results



                                                                              Appendix IV

                              Prior Audit Reports

The TIGTA has previously performed 10 audits in this subject area. The audit reports were:
   Fiscal Year 2008 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2008-40-108, dated
   April 17, 2008).
   Fiscal Year 2007 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2007-40-055, dated
   March 20, 2007).
   Fiscal Year 2006 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2006-40-095, dated
   June 6, 2006).
   Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2005-40-157, dated
   September 21, 2005).
   Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2004-40-066, dated
   March 19, 2004).
   Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2003-40-090, dated
   March 27, 2003).
   Compliance With Regulations Restricting the Use of Records of Tax Enforcement
   Results Shows Improvement (Reference Number 2002-40-163, dated September 11,
   2002).
   Compliance With the Internal Revenue Service Restructuring and Reform Act of 1998
   Section 1204 Has Not Yet Been Achieved (Reference Number 2001-10-178, dated
   September 27, 2001).
   Further Improvements Are Needed in Processes That Control and Report Misuse of
   Enforcement Statistics (Reference Number 2000-10-118, dated September 18, 2000).
   The Internal Revenue Service Should Continue Its Efforts to Achieve Full Compliance with
   Restrictions on the Use of Enforcement Statistics (Reference Number 1999-10-073, dated
   September 29, 1999).

                                                                                       Page 14
                                 Fiscal Year 2009 Statutory Audit of
                            Compliance With Legal Guidelines Restricting
                           the Use of Records of Tax Enforcement Results



                                                                 Appendix V

         Manager’s Quarterly Self-Certification –
             No Violations (Form 1204-M)




Source: Internal forms on the IRS web site.



                                                                           Page 15
                Fiscal Year 2009 Statutory Audit of
           Compliance With Legal Guidelines Restricting
          the Use of Records of Tax Enforcement Results



                                                Appendix VI

Management’s Response to the Draft Report




                                                          Page 16
      Fiscal Year 2009 Statutory Audit of
 Compliance With Legal Guidelines Restricting
the Use of Records of Tax Enforcement Results




                                                Page 17
